                    June 8, 2000

                    RICHARD D. WEIRICH
                    VICE PRESIDENT, INFORMATION TECHNOLOGY

                    SUBJECT:	      Management Advisory Report – Review of
                                   Selected Billing Practices of a Postal Service
                                   Telecommunications Contractor
                                   (Report Number FA-MA-00-005)

                    During the course of an investigation we learned of
                    allegations of excessive charges to the Postal Service by a
                    telecommunications contractor. We subsequently initiated a
                    review of the contract and billing practices to determine if
                    the allegations were true. This report presents the results of
                    the review.

Results in Brief	   The review confirmed that the Postal Service was
                    overcharged more than $75,000 for telecommunications
                    services for the month of July 1999. This was caused by a
                    telecommunications contractor's failure to input the Postal
                    Service in its billing system as a government entity.

                    We suggest that the vice president, Information Technology,
                    direct the Postal Service contracting officer's representative
                    to coordinate with the contractor's Government Services
                    Division to identify the accounts affected and ensure that
                    the Postal Service recovers the overcharges. Management
                    concurred with the suggestions, and the actions taken and
                    planned should correct the issue identified in this report.

Background 	        In 1993 the Postal Service awarded a contract to provide
                    long distance telephone service, calling card service and
                    toll-free 800 number services. The telecommunications
                    contractor was designated as the telephone service carrier
                    for all postal facilities. In 1997 the Postal Service elected to
                    exercise a one-year option and extended this contract until
                    April 1998.
Review of Selected Billing Practices of a                                        FA-MA-00-005
 Postal Service Telecommunications Contractor


                             In May 1998 the Postal Service issued a new one-year
                             contract to the contractor with an additional one-year option
                             to provide the same telephone services as the previous
                             contract. In May 1999 the Postal Service exercised the
                             one-year option with the contractor, extending the contract
                             period to April 2000.

Objective, Scope and         The objective of this review was to determine if the Postal
Methodology                  Service was incurring excessive charges under the
                             telecommunications contract. During the review, we
                             conducted interviews with Postal Service management and
                             coordinated with Postal Service and the telecommunications
                             contractor staff. We also reviewed the contract file and
                             copies of invoices from several Postal Service District
                             offices that still had telephone accounts with the contractor.
                             This review was conducted from December 1999 through
                             June 2000 in accordance with the President’s Council on
                             Integrity and Efficiency, Quality Standards for Inspections.

Telecommunications           The telecommunications contract stated that the Postal
Charges                      Service would be charged for services at a government rate,
                             which was cheaper than the rate charged to the contractor's
                             commercial customers. In August 1999 Postal Service
                             officials noticed a significant increase in the monthly
                             telecommunications charges and therefore, complained
                             about the charges. As a result, we analyzed the monthly
                             invoices and found that the Postal Service was not
                             assessed the appropriate charges for the month of July
                             1999. Coordination with personnel from the Contractor's
                             Government Services Division confirmed billing
                             discrepancies occurred due to the fact that the government
                             entity code was dropped out of the database. Therefore,
                             the contractual government rates were not applied to the
                             Postal Service and, instead, the Postal Service was charged
                             at the contractor's commercial rates. As a result, the Postal
                             Service paid approximately $75,000 in excess charges.




                                                2
Review of Selected Billing Practices of a                                         FA-MA-00-005
 Postal Service Telecommunications Contractor




Suggestions                  We offer the following suggestions. The vice president,
                             Information Technology should direct the Postal Service
                             contracting officer's representative to coordinate with the
                             contractor's, Government Services Division, to:

                             1. Identify the accounts affected by the miscoding and
                                ensure that the Postal Service is credited for any
                                overpayments.

                             2. Ensure future billings and rates are correct and in
                                compliance with the contract.

                             Please provide the OIG a written summary of your findings
                             and the total funds recovered/credited back to the Postal
                             Service.

Management's                 Management concurred with the suggestions and stated
Comments                     that the account affected by the miscoding has been
                             identified and a $75,000 credit has been applied and the
                             contracting officer would present written confirmation of the
                             credits. In addition, management stated that the accounts
                             would be transitioned to another vendor and that
                             procedures would be identified to prevent a recurrence.

Evaluation of                Management's actions taken and planned are responsive to
Management's                 the suggestions and should correct the issue identified in
Comment                      this report.

                             Thank you, for the cooperation and support of your staff in
                             this matter. If you have any questions, or if we can be of
                             further assistance, please do not hesitate to contact
                             Anthony T. Cannarella, director, Facilities Team, or me at
                             (703) 248-2270.



                             Sylvia L. Owens
                             Assistant Inspector General
                              for Business Protection

                             cc: 	 Thomas A. Nicolosi
                                   Larry Wills
                                   John R. Gunnels




                                                3
Review of Selected Billing Practices of a                 FA-MA-00-005
 Postal Service Telecommunications Contractor


                        APPENDIX. MANAGEMENT'S COMMENTS




                                                4
Review of Selected Billing Practices of a           FA-MA-00-005
 Postal Service Telecommunications Contractor




                                                5
Review of Selected Billing Practices of a           FA-MA-00-005
 Postal Service Telecommunications Contractor




                                                6
Review of Selected Billing Practices of a           FA-MA-00-005
 Postal Service Telecommunications Contractor




 Major Contributors to
 This Report




                                                7
